APPENDIX

2a

APPENDIX
TABLE OF CONTENTS
Appendix A

Court of appeals opinion
December 30, 2020 .............................. 4

Appendix B

Order Appointing Counsel
July 9, 2014 ....................................... 16

Appendix C

Order of Transfer to Adult Proc.
April 14, 2015 .................................... 17

Appendix D

Order to Stay Appeal for Plea
October 14, 2015 ................................ 31

Appendix E

Order Denying Plea
July 1, 2016 ....................................... 32

Appendix F

Order Accepting Plea
.
April 19, 2019 .................................... 33

Appendix G

Order of Sentencing
September 6, 2019 ............................. 34

Appendix H Texas Grand Jury Indictment
November 13, 2013 ............................ 35
Appendix I

Federal Juvenile Information
July 7, 2014 ....................................... 36

Appendix J

Certification to Proceed under
the Juvenile Justice and
Delinquency Prevention Act ............. 37

Appendix K

Motion to Transfer to Adult Proc.
July 9, 2014 ....................................... 40

Appendix L

Motion for Continuance
August 18, 2014 ................................. 43

Appendix M Psychological Report
February 18, 2015 ............................. 44

3a

Appendix N Rearraignment Tr. (Mag. Judge)
.
January 22, 2016 ............................... 46
Appendix O

Rearraignment Tr. (District Judge)
January 22, 2016 ............................... 49

Appendix P

Motion to Withdraw Plea
July 1, 2016 ....................................... 53

Appendix Q

Rearraignment Tr. (Mag. Judge)
.
June 8, 2018 ...................................... 55

Appendix R

Rearraignment Tr. (District Judge)
April 19, 2019 .................................... 58

Appendix S

Presentence Investigation Report
July 3, 2019 ....................................... 62

Appendix T

Sentencing Hearing Tr.
.
September 6, 2019 ............................. 63

4a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-20643
UNITED STATES OF AMERICA,
Plaintiff—Appellee,
v.
JOSE LEONEL BONILLA-ROMERO,
Also known as Jose Tupapa,
Defendant—Appellant.
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:14-CR-245-3
Before OWEN, Chief Judge, and DENNIS and
HAYNES, Circuit Judges. HAYNES, Circuit Judge:
Appellant Jose Leonel Bonilla-Romero was
involved in a gang-related murder when he was
seventeen years old. He was charged with and pleaded
guilty to first-degree murder under 18 U.S.C. §
1111(b). While a person convicted of first-degree
murder under § 1111(b) “shall be punished by death
or by imprisonment for life,” a defendant who was
under the age of eighteen at the time of the offense,
such as Bonilla-Romero, cannot be sentenced to death
or mandatory life imprisonment, see Miller v.
Alabama, 567 U.S. 460,

5a

479 (2012) (holding mandatory life without parole
unconstitutional for juveniles); Roper v. Simmons, 543
U.S. 551, 575 (2005) (holding the same for the death
penalty). In order to resolve this constitutional defect,
the district court severed § 1111(b)’s punishment
provision for first-degree murder, determined that
the statute-as-modified authorizes imprisonment “for
any term of years or for life,” and accordingly
sentenced Bonilla-Romero to a term of imprisonment
of 460 months. For the reasons set forth below, we
AFFIRM.
I. Background
As a teenager, Bonilla-Romero became involved
with a gang. Related to their gang involvement,
Bonilla-Romero and two other gang members “killed
Josael Guevara by striking him with a bat and a
machete.” At the time of the murder, Bonilla-Romero
was seventeen years old—a minor.
The Government filed proceedings against
Bonilla-Romero under the Juvenile Justice and
Delinquency Prevention Act, 18 U.S.C. §§ 5031–42. In
a “Juvenile Information” charging document, the
Government alleged that Bonilla-Romero killed
Guevara
“with
premeditation
and
malice
aforethought . . . which would have been a crime in
violation of [18 U.S.C. § 1111] if he had been an adult.”
The Government moved to transfer the proceedings
against Bonilla-Romero to adult criminal prosecution.
The district court granted the motion and noted,
among other factors warranting transfer, that
Bonilla-Romero was only three months shy of his
eighteenth birthday at the time of the offense, that the
alleged murder “was particularly brutal,” and that
Bonilla-Romero exhibited sufficient maturity to be
tried as an adult.

6a

Bonilla-Romero appealed the transfer of his case
to adult proceedings. A previous panel of this court
stayed the appeal “for the limited purpose of plea
proceedings.” Back at the district court, BonillaRomero entered into a plea agreement with the
Government that included a sentence of “no more than
30 years” of imprisonment and “a term of supervised
release after imprisonment of up to five years.” The
district court, however, rejected the plea agreement.
His plea agreement rejected, Bonilla-Romero
withdrew his plea of guilty. But later, he again
pleaded guilty. During the plea colloquy, the court
asked Bonilla-Romero, “Have you talked with your
lawyer . . . about what the maximum penalties are for
the offense charged against you in the Superseding
Indictment?” Bonilla-Romero answered affirmatively.
The court also explained:
Now, under Section 1111 of Title 18, which
is the federal murder statute, the offense of
murder in the first degree, which is charged
here, carries a maximum sentence of death
and a minimum sentence of life in prison.
Because you had not quite attained the age
of 18 when the crime was committed and are
being tried as an adult, under the United
States Constitution, you’re not eligible for the
death penalty or for a mandatory sentence of
life imprisonment.
Therefore, in reading the punishments
prescribed for murder, in the murder statute,
Section 1111(b), the Court must sever and
omit those words in the punishment
language. That would be unconstitutional, if
applied to you, because of your age at the time
of the crime. When the Court does that, the

7a

offense—the offense of murder in the first
degree committed at the time— committed by
one who, at the time of the murder, had not
attained 18 years of age and is tried as an
adult, carries with it the following
punishment:
The sentence of imprisonment for any term
of years or for life; a fine not to exceed
$250,000; a term of not more than five years
of supervised release; and a special
assessment of $100.
Bonilla-Romero then pursued his interlocutory
appeal. Sealed Appellee 1 v. Sealed Juvenile 1, No. 1520262, slip op. at 3 (5th Cir. Mar 9, 2018), cert. denied,
139 S. Ct. 1258 (2019). Another panel of this court
dismissed the interlocutory appeal since sentencing
had not yet occurred; in dismissing the appeal, the
panel noted that Bonilla-Romero “raised an important
constitutional question that may deserve a thorough
review when the appropriate time comes.” Id. at 5.
Prior to the sentencing hearing, as part of BonillaRomero’s presentence investigation report (“PSR”),
the probation officer provided that the statutory
provision allowed for “[a]ny term of years up to and
including Life” and that Bonilla-Romero’s guideline
range—based on an offense level of 43 and criminal
history category of I—was life imprisonment. The
probation officer recommended that, after applying a
downward variance “given the defendant’s age at the
time of the offense” and accounting for time served in
custody, Bonilla-Romero be sentenced to 578 months’
imprisonment. The Government filed a sentencing
memorandum requesting that the district court
“sentence Bonilla-Romero to 35 years or more of
incarceration.”

8a

Bonilla-Romero
objected
to
the
PSR’s
determination that he was subject to a term of
imprisonment up to and including life, noting that 18
U.S.C. § 1111(b) allows for first-degree murder to
be punished only with mandatory life imprisonment
or death but that juveniles may not receive those
sentences. At the sentencing hearing, the district
court explained that “[t]he question is whether there
is any valid portion of Section 1111(a) [that when]
applied to juveniles . . . would function independently,
and in a manner consistent with the intent of
Congress.” In this case, because “the maximum
penalty is authorized” by statute and no provision
exists for “less than [a] life sentence,” a “gap” had been
“left open.” The court further explained that “[i]n the
absence of more specific and constitutional guidance
from Congress,” a statute authorizing only a
maximum penalty “provid[es] discretion to the
sentencing judge to sentence anywhere between no
penalty, and the maximum penalty.” For these
reasons, the court overruled Bonilla- Romero’s
objection.
The district court ultimately sentenced BonillaRomero to 460 months of imprisonment (thirty-eight
years and four months), followed by five years of
supervised release. Bonilla-Romero timely appealed
the district court’s judgment.
II. Jurisdiction and Standard of Review
The district court had jurisdiction over this case
under 18 U.S.C. § 3231, and we have jurisdiction over
Bonilla-Romero’s timely appeal under 28 U.S.C. §
1291 and 18 U.S.C. § 3742(a). We review
constitutional challenges de novo. United States v.
Romero-Cruz, 201 F.3d 374, 377 (5th Cir. 2000).

III.

9a

Discussion

On appeal, Bonilla-Romero raises two challenges
to his conviction. First, he contends that the district
court unconstitutionally fashioned a new punishment
for first-degree murder committed by juveniles,
violating the Due Process Clause’s notice requirement
and separation-of-powers doctrine. Second, he asserts
that the district court violated the Due Process Clause
and Federal Rule of Criminal Procedure 11 by failing
to specify his potential sentencing range at his plea
hearing. Neither of Bonilla-Romero’s challenges
succeed.
A. Punishment Provision Challenge
18 U.S.C. § 1111(a) creates two categories of
murder. First-degree murder features an aggravating
characteristic, such as being perpetrated “by poison,
lying in wait, or any other kind of deliberate,
malicious, and premediated killing.” 18 U.S.C. §
1111(a). Second-degree murder encompasses all
murder not in the first degree. Id. Although § 1111(b)
authorizes a sentence of “imprison[ment] for any term
of years or for life” for second-degree murder, §1111(b)
sets forth a minimum and maximum sentence
prescribing that first-degree murder “be punished by
death or imprisonment for life.” Id. § 1111(b). As the
Government concedes, as a result of the Court’s
rulings in Miller and Roper, a death sentence is not
available for juveniles. A mandatory life sentence
without possibility of parole is also proscribed.
The Supreme Court recently restated that when a
portion of a statute is unconstitutional, “the
traditional rule is that the unconstitutional provision
must be severed unless the statute created in its
absence is legislation that Congress would not have

10a

enacted.” Seila Law LLC v. Consumer Fin. Prot.
Bureau, 140 S. Ct. 2183, 2209 (2020) (internal
quotation marks and citation omitted). Nothing
suggests that Congress would not have enacted a
murder statute covering juveniles if it had foreseen
the rulings in Miller and Roper. Thus, the focus here
must be on the proper remedy.
We conclude that it is appropriate to sever as
necessary. The question then becomes which portions
of § 1111 must be excised and which must be retained.
United States v. Booker provides the framework: “we
must retain those portions of [§ 1111] that are (1)
constitutionally valid, (2) capable of functioning
independently, and (3) consistent with Congress’ basic
objectives in enacting the statute.” 543 U.S. 220, 258–
59 (2005) (cleaned up). At the same time, “we must
refrain from invalidating more of the statute than is
necessary.” Id. at 258 (internal quotation marks and
citation omitted).
Roper requires that we strike § 1111(b)’s
authorization of the death penalty for juveniles, and
Miller requires that we do the same for its mandatory
minimum of life imprisonment. Yet we need not go
further; under Miller, juveniles may be sentenced to
life imprisonment, provided that the sentencer
adequately considers the offender’s youth. 567 U.S. at
479–80 (noting that “appropriate occasions for
sentencing juveniles to this harshest penalty will be
uncommon”).
As currently drafted, § 1111(b) provides a
statutory maximum of death for first-degree murder
and a statutory minimum of life imprisonment

11a

without parole. 1 Under Roper, the death penalty must
be discarded, leaving life imprisonment as both the
statutory maximum and minimum. Because Miller in
turn prohibits mandatory life without parole
sentences for juveniles, all that remains of the
punishment provision is a statutory maximum of life
imprisonment. Where Congress only provides a
statutory maximum, the district court has discretion
to impose no penalty or any penalty up to that
maximum. Cf. United States v. Turner, 389 F.3d 111,
120 (4th Cir. 2004) (holding that when Congress fails
to provide a statutory maximum, it “gives maximum
discretion to the sentencing court,” such that “the
maximum is life imprisonment”); United States v.
Wright, 812 F.3d 27, 33 (1st Cir. 2016) (holding the
same). Thus, excising the mandatory minimum
nature of the life sentence is all that is needed to
satisfy the constitutional issue for juveniles under §
1111.
0F

Another way to address the issue is to substitute
the punishment provision for second-degree murder in
this case because, under § 1111’s scheme, all of the
elements of second-degree murder must be met to be
convicted of first-degree murder. 2 Either approach
yields the result reached by the district court: that
1F

A federal life sentence is a sentence of life imprisonment
without parole because parole is no longer available in the
federal system. Richmond v. Polk, 375 F.3d 309, 316 (4th Cir.
2004) (citing the Sentencing Reform Act of 1984, Pub. L. No. 98473, Title II, 98 Stat. 1987).
2 First-degree murder is a murder plus the heightened state-ofmind element (willfulness, deliberateness, maliciousness, or
premeditation). See 18 U.S.C. § 1111(a). Second-degree murder
is any other murder. Id. Therefore, any offense that satisfies the
elements for first degree murder necessarily satisfies those for
second-degree murder as well.
1

12a

Bonilla-Romero shall be punished by imprisonment
“for any term of years or for life.”
The district court’s remedy complies with Roper
and Miller, functions independently, and is consistent
with Congress’s clear intent to criminalize “the
unlawful killing of a human being with malice
aforethought,” 18 U.S.C. § 1111(a). Nevertheless,
Bonilla-Romero contends that the district court’s
solution is still unconstitutional, relying on United
States v. Evans, 333 U.S. 483 (1948), and United
States v. Under Seal, 819 F.3d 715 (4th Cir. 2016), for
the proposition that the Government cannot
retroactively graft a lesser penalty onto an indicted
charge.
Evans presented “an unusual and a difficult
problem”: the statute at issue criminalized both
smuggling and harboring aliens, but it provided a
punishment only for smuggling. 333 U.S. at 484.
Because the statutory scheme resulted in doubt and
ambiguity, the Supreme Court declined to apply the
smuggling penalty to a harboring offense. Id. at 489,
495. Here, however, the statutory scheme is not
ambiguous. The scheme makes clear that any killing
of a human being with malice aforethought is illegal
and punishable by a term of imprisonment; and if the
offender’s conduct was willful, deliberate, malicious,
or premediated, then an increased penalty applies.
See 18 U.S.C. § 1111. Because the offenses and
corresponding punishments are clear under the
statutory scheme, the instant case does not raise the
“unusual” problem that was at issue in Evans.
In Under Seal, the district court denied the
Government’s motion to try the defendant—a juvenile
accused of murder in aid of racketeering—as an adult
because the racketeering statute carried a mandatory

13a

penalty of either life imprisonment or death. 819 F.3d
at 717. The Fourth Circuit affirmed the district court’s
decision because a “conviction would require the court
to impose an unconstitutional sentence.” Id. at 728.
The Fourth Circuit reasoned that, under the structure
of the racketeering statute, there was no punishment
that could be applicable to the juvenile. Id. The
provision at issue, 18 U.S.C. § 1959(a)(1), contained
one penalty for racketeering- related murder (life
imprisonment or death), which could not be imposed
on a juvenile, and another for racketeering-related
kidnapping (imprisonment for any term of years or
life). See id. at 723–24. The Fourth Circuit declined to
“combine the penalty provisions for two distinct
criminal acts.” Id. at 724. Therefore, “[t]he penalty
enacted for the kidnapping-based offense [could not]
simply be interchanged with and applied to the
murder-based offense, as these . . . [have] distinct
elements.” Id. Grafting the kidnapping penalty onto a
murder offense would “run[] counter to the
Constitution’s guarantee of due process” because the
statute does not provide notice that any other penalty
could be applicable for the murder. Id. at 726.
Under Seal is also distinguishable from the
instant case. As discussed above, an offense that
meets the elements for first-degree murder would also
satisfy the elements for second-degree murder. With
that aspect of the statutory scheme in mind, the
statute provides notice that the conduct of murder
could result in a term of imprisonment for any term of
years. See 18 U.S.C. § 1111(b).
Bonilla-Romero also insists that the district
court’s solution violates the separation-of-powers
doctrine because it applies the penalty Congress
intended for second-degree murder to first-degree

14a

murder. Yet by deleting any penalty for juvenile firstdegree murderers, Bonilla-Romero’s approach would
completely frustrate the will of Congress by placing
juveniles who committed the most heinous murders in
a better position than those who committed seconddegree murder. Thus, we conclude that BonillaRomero’s challenges to the district court’s
construction of § 1111(b)’s punishment provision fail.
B. Plea Hearing Challenge
Bonilla-Romero also challenges the district court’s
supposed failure to specify his sentencing range at his
plea hearing. Under the Due Process Clause and
Federal Rule of Criminal Procedure 11, when a guilty
plea is accepted, the court must inform the defendant
of the consequences of his plea, including the
maximum possible penalty and any mandatory
minimum sentence. See Fed. R. Crim. P. 11(c)(1); see
also United States v. Pearson, 910 F.2d 221, 222–23
(5th Cir. 1990). As long as a defendant is advised of
and understands the consequences of his plea, the
plea is knowing and voluntary. Pearson, 910 F.2d at
223.
At the plea hearing, the district court provided
notice of Bonilla- Romero’s sentencing considerations
in detail, as set forth above. It made clear that his
offense typically resulted in a penalty of mandatory
life imprisonment or death but that, because of his
youth at the time of the offense, Bonilla-Romero would
be eligible for a “sentence of imprisonment for any
term of years or for life” and “a fine not to exceed
$250,000.” Thus, Bonilla-Romero was informed of the
maximum penalty that he faced. Moreover, no
mandatory minimum applied. The transcript of
Bonilla- Romero’s plea hearing demonstrates that the
court properly notified him of the consequences of a

15a

guilty plea and, accordingly, that Bonilla-Romero’s
plea was knowing and voluntary. Therefore, this
challenge also fails.
Accordingly, we AFFIRM.

16a

APPENDIX B
Case 4:14-cr-00245 Document 93 *SEALED* Filed on
07/09/14 in TXSD Page 1 of 1
CJA 30 DEATH PENALTY PROCEEDINGS:
APPOINTMENT AND AUTHORITY TO PAY
COURT-APPOINTED COUNSEL
***
Federal Capital Prosecution
***
/s/ [Illegible] (Judge Stacy)
Signature of Presiding Judge or By Order of the
Court
7/9/2014
Date of Order

17a

APPENDIX C
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
UNITED STATES OF AMERICA
v.
J.B.R., A MALE JUVENILE,
CR. NO. H-14-245-3
UNDER SEAL
ORDER OF TRANSFER TO ADULT
CRIMINAL PROCEEDINGS
The Government alleges that on September 22,
2013, Defendant J.B.R.--who at the time was 17 years,
9 months old--"willfully, deliberately, maliciously, and
with premeditation and malice aforethought" killed
Josael Guevara by striking him with a bat and a
machete, while he was within the special maritime
and territorial jurisdiction of the United States, an
offense that would be a crime in violation of 18 U.S.C.
§ 1111 if Defendant had been an adult. 1 The
Government moves to transfer the proceedings
against Defendant to adult criminal prosecution
pursuant to 18 U.S.C. § 5032. 2 After having
considered the motion, Defendant's opposition and the
2F

3F

1
2

Document No. 23 (Juvenile Information).
Document No. 40.

18a

response and reply thereto, the Court-ordered
psychological evaluation conducted by Dr. Ramon
Laval, 3and the arguments and evidence presented at
the transfer motion hearing on April 3, 2015, the
Court finds for the following reasons that the motion
should be granted.
4F

Title 18 U.S.C. § 5031 defines a "juvenile" as "a
person who has not attained his eighteenth birthday,
or for the purpose of proceedings and disposition
under this chapter for an alleged act of juvenile
delinquency, a person who has not attained his
twenty-first birthday," and defines "juvenile
delinquency" as, inter alia, "the violation of a law of
the United States committed by a person prior to his
eighteenth birthday which would have been a crime if
committed by an adult." 18 U.S.C. § 5031.
The Government filed a "Certification to Proceed
under the Juvenile Justice and Delinquency
Prevention Act, 18 U.S.C. § 5031 et. seq.," alleging
that federal jurisdiction is proper on two separate
bases: (1) that the crime is a felony crime of violence
in which there is a substantial federal interest
because of its serious nature and the fact that it took
place within the territorial jurisdiction of the United
States, and (2) that Texas does not have available
programs and services adequate for the needs of
Defendant because under Texas law he was an adult

Dr. Laval, a licensed psychologist with extensive professional
experience, who is bilingual in Spanish and English, was
appointed by agreement of the parties. See Document No. 72-3
(Curriculum Vitae of Dr. Laval); Document No. 83 (Order for
Psychological Examination).
3

19a

on the date of the murder and would be tried as an
adult under Texas law. 4
5F

The Government subsequently filed the instant
Motion to Transfer Proceedings Against Juvenile to
Adult Criminal Prosecution. 5 The Government argues
that all of the statutory factors in 18 U.S.C.
6F

§ 5032 except for Defendant's one recorded prior
delinquency strongly support transfer. 6 Defendant
responds that the Court is "prohibited from
transferring J.B.R.'s case because transfer would
necessarily subject J.B.R. to unconstitutionally cruel
and unusual punishment, a result that is not in the
interest of justice." 7
7F

8F

The decision whether to transfer a juvenile for
adult prosecution pursuant to 18 U.S.C. § 5032 is
committed to the sound discretion of the trial court,
provided the court employs and makes findings as to
the six criteria outlined in§ 5032. United States v.
Three Male Juveniles, 49 F.3d 1058, 1060 (5th Cir.
1995). Although all six of the statutory factors must
Document No. 24. See 18 U.S.C. § 5032 ("A juvenile alleged to
have committed an act of juvenile delinquency ... shall not be
proceeded against in any court of the United States unless the
Attorney General, after investigation, certifies to the appropriate
district court of the United States that (1) the juvenile court or
other appropriate court of a State does not have jurisdiction or
refuses to assume jurisdiction over said juvenile with respect to
such alleged act of juvenile delinquency, (2) the State does not
have available programs and services adequate for the needs of
juveniles, or (3) the offense charged is a crime of violence that is
a felony. . and that there is a substantial Federal interest in the
case or the offense to warrant the exercise of Federal
jurisdiction.").
5 Document No. 40.
6 Document No. 97.
7 Document No. 98 at 2.
4

20a

be considered, the court "is certainly not required to
weigh all statutory factors equally." Id. (quoting U.S.
v. Doe, 871 F.2d 1248, 1254-55 (5th Cir. 1989)).
I. Findings Regarding Statutory Factors
The Court makes the following findings only for
purposes of ruling on the Government's transfer
motion. The six§ 5032 factors to be considered in
determining whether transfer is in the interest of
justice are: (1) the age and social background of the
juvenile; (2) the nature of the alleged offense; (3) the
extent and nature of the juvenile's prior delinquency
record; (4) the juvenile's present intellectual
development and psychological maturity; (5) the
nature of past treatment efforts and the juvenile's
response to such efforts; and (6) the availability of
programs designed to treat the juvenile's behavioral
problems. 18 U.S.C. § 5032.
A. Defendant's Age and Social Background
Defendant was shy of his eighteenth birthday by
just three months when Guevara was murdered.
His social history related here is based on Dr.
Laval's report, which he prepared after conducting an
extensive three-hour interview with Defendant and
reviewing Defendant's law enforcement interview
video recordings, school records, and juvenile
delinquency records, all of which were received in
evidence at the hearing.
Defendant was born in El Salvador in 1995 and
was reared on a farm by his maternal grandparents
until he was almost 14. At the transfer hearing,
Defendant's counsel described Defendant's young life
in El Salvador as "idyllic." In 2009, Defendant came to
Houston to live with his father and stepmother, and
became involved in the MS-13 gang. When Defendant

21a

was about 16 years old, he left home and began
staying with friends, moving from house to house, and
also began a relationship with a 21-year-old woman.
After about six months away from his father's house,
Defendant moved in with his paternal grandmother
and went back to school. Defendant later moved to
Louisiana to live with his biological mother.
Defendant advanced to the third grade in El
Salvador, and learned to read and write in Spanish, in
part through his grandfather's help. In the United
States, Defendant enrolled in bilingual classes and
progressed to but did not complete the ninth grade.
Defendant learned to speak and read English on the
streets and, to a large extent, during his current
incarceration.
Defendant's social background is not outside the
realm of the ordinary, and nothing about it suggests
that Defendant, then just under 18 years old, lacked
at least the maturity of a typical 18-year-old when
Guevara was murdered. Accordingly, this factor
weighs in favor of transfer.
B. Nature of the Alleged Offense
The murder alleged in this case was particularly
brutal. The victim, Guevara, was chopped with a
machete and beaten with a bat multiple times; his
head was almost severed and his knees and ankles
were cut almost through the joints. Defendant
admitted that when he got into a truck with Guevara
and two other MS-13 gang members, he knew that
they were going to kill someone based on an order
from MS-13 in El Salvador. Defendant further
admitted that he learned on the way to the execution
site that the intended victim was Guevara. Defendant
admitted hitting Guevara in the head with a bat.

22a

This was not a crime of impulse attributable to
Defendant's youth or any lack of maturity. Instead,
Defendant acted to murder the victim, as ordered by
gang leaders, and did so with brutal violence in a
deliberate, calculated, and premeditated manner.
Based on the charges and evidence thus far presented,
all the accomplices in the murder appear to have
wielded the bat or machete or both as they inflicted
the fatal blows, cuts, and slashes on Guevara. The
very serious nature of the alleged murder, which was
planned and calculated, weighs heavily in favor of
transfer. See United States v. Nelson, 68 F.3d 583,
590 (2d Cir. 1995) ("[W]hen a crime is particularly
serious, the district court is justified in weighing this
factor more heavily than the other statutory factors.
The heinous nature of the crime of intentional murder
certainly may be a factor entitled to special weight.")
(citing United States v. A.R., 38 F.3d 699, 705 (3d Cir.
1994) i United States v. Hemmer, 729 F.2d 10, 17-18
(1st Cir. 1984); United States v. A.W.J., 804 F.2d 492,
493 (8th Cir. 1986)) (internal citation omitted).
C. Extent and Nature of Defendant's Prior
Delinquency Record
Before Guevara's murder, Defendant had one
recorded delinquency in 2012, when he was found in
possession of marijuana on school property and was
placed on six months of court-supervised probation.
He successfully completed his probation four months
before the murder. This prior delinquency record does
not weigh in favor of transfer.
D. Defendant's Present Intellectual Development
and Psychological Maturity

23a

Dr. Laval examined Defendant on January 16,
2015 and noted, among other things, that:
Defendant's "mood was neutral, stable, and jovial, and
his affect was appropriate in range and congruent
with his mood"; 8 "his thought processes were logical,
organized, and goal-directed"; 9 "his manner of
communication reflected use and command of
[Spanish] suggesting that, at the very least, he has
abilities within the average range of intellectual
functioning"; 10 Defendant obtained a score of 104 on
the Test of Nonverbal Intelligence, which is
"consistent with intellectual functioning within the
average range"; 11 "there is no evidence that J.B.R.
suffers from a severe or diagnosable mental illness
(other than as it relates to a history of polysubstance
abuse) that would significantly interfere with the
development of optimal levels of psychological
maturity,"
despite
the
disruptions
to
his
12
childhood;12 Defendant exhibited poor judgment
demonstrating
psychological
immaturity
by
experimenting with marijuana and alcohol in El
Salvador at a young age, which evolved into more
destructive patterns when he joined MS-13 in the
United States;13 13 and after being caught with
marijuana, Defendant "then demonstrated an
appropriate measure of judgment and psychological
insight when he considered that his social network
and his substance abuse had become too problematic,"
at which time, "displaying an increased level of
9F

10F

11F

12F

13F

14F

Document No. 94 at 6.
Id. at 7.
10 Id. at 9.
11 Id.
12 Id.
13 Id. at 10.
8
9

24a

psychological maturity, he had the foresight and sense
of prudence to decide to leave Houston, stay away
from his old friends, and move to Louisiana to reside
with his mother," after which he successfully
completed probation.14 14
15F

Dr. Laval identified these factors as "signs of an
appropriate level of psychological maturity," and
concluded:
[I]t is my opinion that J.B.R. possesses a
level of intellectual development and
psychological maturity which allows him,
among other things: to have a clear and
reasonable understanding of the charges
against him and of the possible consequences
of conviction; to disclose to his attorney
pertinent facts, events and states of mind
regarding his personal history, and his
current legal circumstances in a relevant and
goal-directed manner; to think rationally and
coherently and to confer with his lawyer and
engage in reasoned choices of legal strategies
and options; to understand the criminal
justice system and the adversarial nature of
prosecution; to display appropriate behavior
and demeanor in Court; and to participate
meaningfully as he faces the charges leveled
against him in Court.15 15
16F

The evidence supports a finding that Defendant is a
person of at least average intellectual development
and psychological maturity, amply adequate to render
him amenable to trial as an adult. This factor weighs
in favor of transfer.
14
15

Id.
Id. at 10-11.

25a

E. Nature of Past Treatment
Defendant's Response to Such Efforts

Efforts

and

The only evidence of record related to past
treatment efforts and Defendant's response thereto is
that Defendant successfully completed six months of
probation for his marijuana possession offense, but
that approximately four months later, he had used
marijuana on the day of his arrest for murder. 16 This
factor adds no material weight in favor of transfer.
17F

F. Availability of Programs Designed to Treat
Defendant's Behavioral Problems
Defendant was an adult under Texas law when
Guevara's murder was committed, and Defendant is
therefore ineligible to participate in Texas's juvenile
programs and services. 17 Defendant presents no
evidence of available federal programs designed to
treat his behavioral problems. The Government
represents that if Defendant were convicted and
sentenced to incarceration as a juvenile, the juvenile
facilities would "have the same programs that are
available in an adult facility; however they are geared
toward juveniles." 18 Because Defendant is now 19
years old, with an intellectual and psychological
profile consistent with his present age, programs in an
18F

19F

See id. at 5.
The Texas Juvenile Justice Code "covers the proceedings in all
cases involving the delinquent conduct or conduct indicating a
need for supervision engaged in by a person who was a child
within the meaning of this title at the time the person engaged
in the conduct," TEX. FAM. CODE§ 51.04, and defines "child" as
"a person who is: (A) ten years of age or older and under 17 years
of age; or (B) seventeen years of age or older and under 18 years
of age who is alleged or found to have engaged in delinquent
conduct or conduct indicating a need for supervision as a result
of acts committed before becoming 17 years of age." Id. § 51.02.
18 Document No. 97 at 9.
16
17

26a

adult facility presumably would be more appropriate
for his treatment than programs "geared toward
juveniles." Accordingly, this factor weighs for transfer.
G. Conclusion
After considering the totality of the statutory
factors pertaining to this Defendant and the horrific
and premeditated nature of the crime alleged, the
Court finds that it is in the interest of justice to
transfer the proceedings against Defendant to
criminal prosecution as an adult.
II. Defendant's Eighth Amendment Challenge
The Juvenile Information against Defendant
alleges that Defendant killed Guevara "willfully,
deliberately, maliciously, and with premeditation and
malice aforethought," allegations of first degree
murder if charged in an adult prosecution. 19 See 18
U.S.C. § 1111(a) ("Every murder perpetrated by . . any
other kind of willful, deliberate, malicious, and
premeditated killing. is murder in the first degree.").
Section 1111 provides that "[w]ithin the special
maritime and territorial jurisdiction of the United
States, [w]hoever is guilty of murder in the first
degree shall be punished by death or by imprisonment
for life." 20 Id. § llll(b).
20F

21F

Defendant argues that transfer to adult
prosecution should be denied because the mandated
statutory sentences for first degree murder have been
held to violate the Eighth Amendment if applied to
defendants who were younger than eighteen when
Document No. 23 at 1.
The Government acknowledged on the record that it could not
pursue the death penalty against Defendant and, as well, has
filed a Notice of Intent Not to Seek Death Penalty for the other
two defendants in this case. Document No. 60.
19
20

27a

they committed murder. 21
See
Roper
v.
Simmons, 125 S. Ct. 1183, 1200 (2005) (holding that
"[t]he Eighth and Fourteenth Amendments forbid
imposition of the death penalty on offenders who were
under the age of 18 when their crimes were
committed."); Miller v. Alabama, 132 S. Ct. 2455, 2460
(2012) (holding that "mandatory life without parole
for those under the age of 18 at the time of their crimes
violates the Eighth Amendment's prohibition on 'cruel
and unusual punishments.'"). The Court in Miller,
however, declined to hold that a sentence of life
imprisonment
without
parole
was
always
unconstitutional when applied to juvenile offenders.
132 S. Ct. at 2469 ("Although we do not foreclose a
sentencer's ability to make that judgment in homicide
cases, we require it to take into account how children
are different, and how those differences counsel
against irrevocably sentencing them to a lifetime in
prison.").
22F

Since Miller, multiple federal courts have
resentenced defendants convicted of murder
committed by them before the age of 18 who were
sentenced to mandatory life terms without parole.
These courts routinely consider what have become
known as the "Miller factors" associated with youth 22
23F

Document No. 98.
See Miller, 132 S. Ct. at 2468 ("Mandatory life without parole
for a juvenile precludes consideration of his chronological age and
its hallmark features--among them, immaturity, impetuosity,
and failure to appreciate risks and consequences. It prevents
taking into account the family and home environment that
surrounds him--and from which he cannot usually extricate
himself--no matter how brutal or dysfunctional. It neglects the
circumstances of the homicide offense, including the extent of his
participation in the conduct and the way familial and peer
pressures may have affected him. Indeed, it ignores that he
21
22

28a

and have imposed sentences for various terms of
years. See United States v. Pete, No. 03-cv- 355-SMM,
Document No. 384 (D. Ariz. July 25, 2014)
(resentencing to 59 years for crimes including felony
murder in the course of aggravated sexual abuse
committed when defendant was 16); United States v.
Stone, No. 05-CR-401-ILG, Document No. 536
(E.D.N.Y. August 11, 2014) (resentencing to total of 40
years for crimes including murder in aid of
racketeering committed when defendant was one
month shy of his 18th birthday); United States v.
Bryant, No. 06-CR-234-GMN-GWF, Document No.
694 (D. Nev. January 17, 2014) (resentencing to total
of 80 years for crimes including murder in aid of
racketeering committed when defendant was 16 years
old); United States v. Alejandro, No. 98-CR-290-CMLMS, Document No. 202 (S.D.N.Y. May 21, 2014)
(resentencing to total of 25 years for crimes including
murder in aid of racketeering committed when
defendant was 15 years old). In United States v.
Maldonado, the sentencing court considered the
Miller factors in the first instance and concluded that
"even taking into account that Maldonado was four
months shy of his eighteenth birthday when he
committed the crimes charged in Counts 5 and 6, and
considering all of the 'hallmark features' associated
with a person of that young age, the imposition of a
sentence of life imprisonment is nonetheless
warranted in this case." No. 09 CR 339-02, 2012 WL
might have been charged and convicted of a lesser offense if not
for incompetencies associated with youth--for example, his
inability to deal with police officers or prosecutors (including on
a plea agreement) or his incapacity to assist his own attorneys.
[Citations omitted.] And finally, this mandatory punishment
disregards the possibility of rehabilitation even when the
circumstances most suggest it.").

29a

5878673, at *10 (S.D.N.Y. Nov. 21, 2012), aff'd, United
States v. Guerrero, 560 F. App'x 110 (2d Cir. 2014).
Defendant does not dispute the correctness of
these decisions, but argued at the motion hearing that
they are distinguishable because, unlike this case,
they--with the exception of Maldonado-­ were
correcting previously imposed unconstitutional
sentences. Defendant argues that because a
mandatory life sentence is unconstitutional for
Defendant, there is prospective uncertainty about the
expected sentence. That, of course, is an uncertainty
that favors Defendant by opening the possibility for a
term of imprisonment that is more lenient than life
imprisonment. Because "imprisonment for life" cannot
constitutionally be imposed upon a defendant
convicted of first degree murder committed before the
defendant was 18 without consideration of the Miller
factors, the Court at sentencing is therefore compelled
to consider the Miller factors and to fashion a sentence
of imprisonment as required by § llll(b), but not
necessarily for life, similar to a sentence for second
degree murder, for "any term of years or for life."2 3 23
24F

The question presently before the Court, however,
is not sentencing but whether it is in the interest of
justice to try Defendant as an adult. See Miller, 132 S.
Ct. at 2474 ("[T]he question at transfer hearings may
differ dramatically from the issue at a post-trial
sentencing."). For the reasons given above, it is in the
interest of justice to try Defendant as an adult, and
accordingly, it is

See 18 U.S.C. § 1111(b) ("Whoever is guilty of murder in the
second degree, shall be imprisoned for any term of years or for
life.").
23

30a

ORDERED that the Government's Motion to
Transfer Proceedings Against Juvenile to Adult
Criminal Proceedings (Document No. 40) is
GRANTED, and Defendant J.B.R. shall be subject to
criminal prosecution as an adult for the crime
described in the Juvenile Information.
The Clerk will enter this Order, providing a
correct copy to all parties of record.
SIGNED at Houston, Texas, on this 14th day of
April, 2015.
/s/ Ewing Werlein, Jr.
EWING WERLEIN, JR.
UNITED STATES DISTRICT JUDGE

31a

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States District Court
Southern District of Texas FILED
OCT 14 2015
David J. Bradley, Clerk of Court
No. 15-20262
4:14-CR-245-03
SEALED APPELLEE 1,
Plaintiff—Appellee,
v.
SEALED JUVENILE 1,
Defendant—Appellant.
Appeal from the United States District Court
for the Southern District of Texas, Houston
Before JOLLY, DENNIS and PRADO, Circuit
Judges.
PER CURIAM:
IT IS ORDERED that the unopposed joint
motion to stay this interlocutory appeal and remand
to the district court for the limited purpose of plea
proceedings is GRANTED.

32a

APPENDIX E
JUDGE EWING WERLEIN, JR.
***
DATE: July 01, 2016
CR. No. H-14-245-3
***
SEALED SENTENCING HEARING
X For reasons stated in detail on the record, the
Court rejected the Plea Agreement (Document No.
160, which was the basis of Defendant’s plea
conditionally accepted by the Court at arearraignment on January 22, 2016. The Court
advised Defendant of his right to withdraw his plea
and resume his interlocutory appeal from the
Order of Transfer pending in the Fifth Circuit
Court of Appeals.
X SENTENCING NOT HELD.
X Defendant’s Motion to Withdraw
GRANTED. ORDER signed.

Plea

is

X Defendant’s plea of guilty, conditional waiver of
juvenile status, and conditional waiver of
indictment are WITHDRAWN, and Defendant
may proceed with his interlocutory appeal.
X Defendant’s counsel is to inform the Fifth Circuit
Court of Appeals that the plea proceedings have
ended without proceeding to sentencing, and
counsel shall request a new briefing schedule in
Appeal Case No. 15-20262.
X Defendant REMANDED to custody.

33a

APPENDIX F
JUDGE EWING WERLEIN, JR.
***
DATE: April 19, 2019
CR. No. H-14-245-3
***
REARRAIGNMENT
X Rearraignment held on Ct(s) 1 of the superseding
indictment.
X Dft enters a plea of GUILTY.
X Order Expediting PSI setting Disclosure and
Sentencing dates signed.
X Sentencing set June 21, 2019 at 10:00 a.m.
X Dft REMANDED to custody.
X Terminate other settings and motions for this
defendant.

34a

APPENDIX G
JUDGE EWING WERLEIN, JR.
***
DATE: September 6, 2019
CR. No. H-14-245-3
***
SENTENCING
X Sentencing held on Ct(s)_l_ pursuant to a Guilty
Plea on 04/19/2019.
X SENTENCE: Ct(s)_l_ BOP Custody for 460
months
***
X WRITTEN
RIGHTS

NOTICE

REGARDING

***

APPEAL

35a

APPENDIX H
ASSIGNED TO THE
12TH JUDICIAL DISTRICT COURT
INDICTMENT NO. [REDACTED]
***
STATE OF TEXAS VS. [REDACTED]
CHARGE: 19.02{B){1)
MURDER/FIRST DEGREE FELONY
***
IN THE NAME AND BY THE AUTHORITY OF
THE STATE OF TEXAS,
THE GRAND JURORS, duly selected, organized,
sworn, and impaneled as such for the County of
Walker, State of Texas, at the July Term, A.D. 2013,
of the District Court for said County upon their oaths
present in and to said Court, that on or about the 22nd
day of September, 2013, and anterior to the
presentment of this indictment, in the County and
State aforesaid did then and there intentionally or
knowingly cause the death of an individual, namely,
by by striking him with a blunt object and cutting him
with a machete or other sharp object.
AGAINST THE PEACE AND DIGNITY OF THE
STATE.
[redacted]
Foreman of the Grand Jury

FILED
Time 5:15
13 DAY OF NOV 2013
***

36a

APPENDIX I
Case 4:14-cr-00245 Document 23 *SEALED* Filed on
07/07/14 in TXSD Page 4 of 5
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
UNITED STATES OF AMERICA
v.
J.B.R., A MALE JUVENILE,
NO. H-14-245-3
UNDER SEAL
JUVENILE INFORMATION
On or about the 22nd day of September, 2013, in the
Southern District of Texas, the defendant, J.B.R., a
male juvenile who had at the time not yet reached his
eighteenth birthday, committed an act of juvenile
delinquency. . . .
***
Houston Police Department investigators identified
“Jose” as a federal juvenile, but state of Texas adult,
J.B.R.
***

37a

APPENDIX J
Case 4:14-cr-00245 Document 24 *SEALED* Filed on
07/07/14 in TXSD Page 2 of 2
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
UNITED STATES OF AMERICA
v.
J.B.R., A MALE JUVENILE,
NO. H-14-245-3
UNDER SEAL
CERTIFICATION TO PROCEED UNDER THE
JUVENILE JUSTICE AND DELINQUENCY
PREVENTION ACT, 18 U.S.C. § 5031 ET SEQ.
COMES NOW, the United States Attorney for
the Southern District of Texas, after investigation of
the matters described herein, and with the
delegation of the Attorney General of the United
States and pursuant to Title 18, United States Code,
Section 5032, certifies to this Court as follows:
1. This certification is made pursuant to the
requirements under Title 18, United States Code,
Section 5032 of the Juvenile Justice and Delinquency
Prevention Act (18 U.S.C. §§ 5031-42), hereafter
referred to as "the Act." J .B.R., a male juvenile,
Defendant herein, has been charged by the United
States with violating Title 18 United States Code,

38a

Sections 1111 and 2, Aiding and Abetting Murder
Within the Special Maritime and Territorial
Jurisdiction of the United States , which is classified
as a felony crime of violence or offenses described in
Title 21, United States Code, Section 841.
2. Defendant is a "juvenile'' as that term is
defined in the Act, in that he has not yet attained the
age of twenty-one, and is accused of committing acts
of juvenile delinquency under Title 18, United States
Code, Section 5032, as described in paragraph 1
herein.
3. There is substantial Federal interest in the
case, or the offense(s), to warrant the exercise of
federal jurisdiction due to the serious nature of the
offense and the allegation that the offense occurred
within the territorial jurisdiction of the United
States, namely, Sam Houston National Forest.
4. Furthermore, the State of Texas does not have
available programs and services adequate for the
needs of this juvenile, as under State of Texas law
J.B.R. was an adult on the date of the commission of
the offense and thus will be prosecuted in Texas as
an adult.
5. The United States Attorney, in filing this
Certification, acts in delegation of authority of the
Assistant Attorney General of the Department of
Justice pursuant to Title 18, United States Code,
Section 5032; Title 28, Code of Federal Regulations,
Section 0.57; and, by Memorandum of the Assistant
Attorney General which is attached to this

39a

Certification as Attachment A and made a part
hereof for all purposes.
WHEREFORE, the United States Attorney now
certifies to this Court that jurisdiction over the
defendant as a juvenile committing acts of juvenile
delinquency is proper in this Court in accordance
with Title 18, United States Code, Section 5032.
Respectfully submitted,
/s/ Kenneth Magidson
KENNETH MAGIDSON
UNITED STATES ATTORNEY
SOUTHERN DISTRICT OF TEXAS

40a

APPENDIX K
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
UNITED STATES OF AMERICA
v.
J.B.R., A MALE JUVENILE,
NO. H-14-245-3
UNDER SEAL
MOTION TO TRANSFER PROCEEDINGS
AGAINST JUVENILE TO ADULT CRIMINAL
PROSECUTION
TO THE HONORABLE JUDGE OF SAID COURT:
COMES NOW, the United States of America, by
and through the United States Attorney in and for
the Southern District of Texas, with the delegation of
the Attorney General of the United States, and
pursuant to Title 18, United States Code, Section
5032, and files this motion and would show as
follows:
1. J.B.R., a male juvenile, Defendant herein, has
not attained his twenty-first birthday and has
allegedly committed an act(s) of juvenile delinquency
prior to his 18th birthday, and is therefore classified
as a "juvenile" for the purposes of criminal
prosecution under federal law.

41a

2. That on or about September 22, 2013, in the
Southern District of Texas, J.B.R., a male juvenile,
Defendant herein, committed the following act(s)
which if committed by an adult would be a felony
offense that has an element thereof the use,
attempted use, or threatened use of physical force
against the person of another, or that, by its very
nature, involves a substantial risk that physical force
against the person of another may be used in
committing the offence, namely: on or about
September 22, 2013 aiding, abetting, and assisting
others known and unknown, in a place within the
special maritime and territorial jurisdiction of the
United States, J.B.R. willfully, deliberately,
maliciously, and with premeditation and malice
aforethought, did unlawfully kill Josael Guevara, by
striking Josael Guevara with a bat and by striking
Josael Guevara with a machete, in violation of Title
18, United States Code, Sections 1111 and 2.
3. Defendant's actions as alleged herein were
committed after Defendant's fifteenth birthday and if
committed by an adult would be felonies that are
crimes of violence or offenses described in Section
401 of the Controlled Substances Act (21 U.S.C. §
841). It would be in the interest of justice if the
district court would transfer the juvenile for criminal
prosecution as an adult for the alleged criminal acts.
WHEREFORE, the United States of America
urges the Court, upon notice and hearing, to grant
the Government's motion to transfer and order
Defendant transferred for criminal prosecution as an
adult.
Respectfully submitted,
/s/ Kenneth Magidson

42a

KENNETH MAGIDSON
UNITED STATES ATTORNEY
SOUTHERN DISTRICT OF TEXAS
CERTIFICATE OF SERVICE
I certify that a true and correct copy of the above and
foregoing motion has this 9th day of July 2014 been
hand-delivered to counsel of record for the
Defendant.
/s/ Kenneth Magidson
UNITED STATES ATTORNEY
SOUTHERN DISTRICT OF TEXAS

43a

APPENDIX L
UNOPPOSED MOTION FOR CONTINUANCE
excerpt
Case 4:14-cr-00245 Document 54 *SEALED* Filed on
08/18/14 in TXSD Page 1 of 2
TO THE HONORABLE UNITED STATES
DISTRICT JUDGE FOR THE SOUTHERN
DISTRICT OF TEXAS:
Now comes J.B.R., Defendant, and files this
Unopposed Motion for Continuance of the pretrial
deadlines and certification hearing in this matter,
and in support shows the following:
1. Defendant, J.B.R. is charged with Capital
Murder.
…..

44a

APPENDIX M
Case 4:14-cr-00245 Document 94 *SEALED* Filed on
02/18/15 in TXSD Page 4 of 11
Psychological Evaluation
J.B.R. -C.R. NO. H-14-245 (3)
Page 4
…..
Educational Background:
J.B.R. reported that he progressed to the third grade
while still residing in El Salvador, despite his claims
of excessive absenteeism. He commented that he and
his family lived in the country, outside of San Miguel,
and that his grandfather had cattle, horses, and com
fields. He stated that his grandfather took him with
him from the time he was a young child to help with
some of the farm chores, including "cleaning" and
preparing the soil, sowing the com seeds, fertilizing
''to make the com strong," and harvesting the com. In
this same context, he discussed with a rather bright
affect and with apparent pride that he learned to ride
horses when he was very young, "And that's how we
went" to the fields, on horse-back, "or walking." They
left the home at about 5 :00 AM and school was in
session from 7:00 AM to 11 :00 AM, thus, "I didn't go
continuously. I would go one day, and then not, and
sometimes not for a full week." Nevertheless, he was
promoted from one to the next grade until he reached
the third grade. Despite his limited formal education,
J.B.R. noted that he learned to read and write in
Spanish, "not only at school," (but) ''through the

45a

course of the years." His grandmother could not help
him read and write - she did not have those basic
skills, he explained, but his grandfather did. His
grandparents were "Christians," J .B .R. commented,
adding "and we worshiped every night and my
grandfather would read from the Bible," which he did
as well with his grandfather's help, and this promoted
his reading skills.

46a

APPENDIX N
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
UNITED STATES OF AMERICA
vs.
J.B.R., A MALE JUVENILE,
CASE NO. 4:14-CR-245-(3)
HOUSTON, TX
FRIDAY, JANUARY 22, 2016 9:25 A.M. TO 9:47 A.M.
***
ARRAIGNMENT
(SEALED BY ORDER OF THE COURT)
BEFORE THE HONORABLE
MARY MILLOY
UNITED STATES MAGISTRATE JUDGE
***
[Page 9]
MR. PARRAS:.…[W]e intend to pursue a plea
agreement. If the plea agreement is not accepted,
then these waivers will be withdrawn and we'll
proceed on an appeal that's currently being advanced
in the Fifth Circuit. So with that very single
exception, we're proceeding forward with this waiver.
THE COURT: Is that the agreement, Mr. Donnelly?
MR. DONNELLY: Yes, Your Honor.

47a

THE COURT: Do you understand that, Mr. Romero?
DEFENDANT ROMERO: Yes, ma'am.
THE COURT: So let me see if I understand it. Mr.
Romero, you intend to plead guilty this afternoon -later this morning -DEFENDANT ROMERO: Yes, ma'am.
THE COURT: -- under an agreement between your
lawyer and you and the prosecutor?
DEFENDANT ROMERO: Yes, ma'am.
THE COURT: If the judge does not accept this
agreement that you-all have reached, you're going to
withdraw your plea of guilty?
[Page 10]
DEFENDANT ROMERO: Yes, ma'am.
THE COURT: You're going to withdraw all of your
waivers?
DEFENDANT ROMERO: Yes, ma'am.
MR. DONNELLY: The plea is an 11(c)(1) plea -(c)(1)(C) plea, Your Honor. We have discussed with
Judge Werlein in general our plans and he has
approved them at this point; however, he won't
actually accept the plea until the PSR has been
prepared and the Defendant has been presented
before sentencing. He understands that the waiver of
status from the juvenile to an adult is conditional, as
well as his waivers to proceed without a Grand Jury
Indictment on an Information only.
So if Judge Werlein ultimately were to reject the
11(c)(1)(C) plea, we would revert back to where we
were prior to entering into the courtroom. The
Defendant would be able to pursue his appeal of Judge

48a

Werlein's previous Order that he be transferred to
adult status.
THE COURT: May I ask what's on appeal?
MR. DONNELLY: The transfer would be the transfer
to adult status. We've had a hearing before Judge
Werlein.
THE COURT: Oh, so that was contested?
[Page 11]
MR. DONNELLY: No, Your Honor.
DEFENDANT ROMERO: Yes, ma'am.
MR. DONNELLY: So now he has held that appeal in
abeyance to pursue the plea agreement, a condition of
which is that he waive his status as a juvenile.
THE COURT: Okay.
****

49a

APPENDIX O
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
UNITED STATES OF AMERICA
vs.
J.B.R., A MALE JUVENILE,
CRIMINAL ACTION NO.
4:14-CR-245-3
11:12 A.M.
SEALED
RE-ARRAIGNMENT BEFORE
THE HONORABLE EWING WERLEIN, JR.
JANUARY 22, 2016
****
[Page 7]
THE COURT: Now, I've been provided a copy of a plea
agreement that your lawyer has negotiated with the
government lawyer.
****
[Page 8]
In paragraph 1, on the first page, it states that you
voluntarily consent to being prosecuted as an adult,
and you waive any right to a hearing to determine if a
transfer to adult status for prosecution would be in the
interest of justice.
****

[Page 10]

50a

THE COURT: Now, the next paragraph says that
you're agreeing to plead guilty to count one of this
criminal information, which charges you with aiding
and abetting murder within the special maritime
jurisdiction -- and territorial jurisdiction of the United
States. So you understand what it is that you're
proposing to plead guilty on, what crime it is to which
you are proposing to plead guilty?
THE DEFENDANT: (In English) Yes, Your Honor.
THE COURT: And then in the next section, D, it says
by entering this plea, you waive any right, that is, you
give up any right you have that -- that you're waiving
any right to have the facts and the law essential to
punishment either charged in the information or
proven to the jury by evidence beyond a reasonable
doubt. In other words, you're saying you do not require
the
[Page 11]
government to prove its case by evidence to satisfy a
jury or fact finder beyond a reasonable doubt. you're
giving up? Do you understand what you’re giving up?
THE DEFENDANT: (In English) Yes, Your Honor.
THE COURT: [The plea agreement] says that you've
also entered a -- have pending in the United States
Court of Appeals an appeal an interlocutory appeal in
Sealed Appellee 1 versus Sealed Appellee [sic] 1, Fifth
Circuit case. It's pending, and you agree to abandon
that appeal, that is, give it up and withdraw it upon
the time that you are sentenced in this case.
THE DEFENDANT: (In English) Yes, Your Honor.
****

51a

THE COURT: All right. Then down here in the next
paragraph on page 2 it states that the statutory
penalty for
[Page 12]
this offense to which you're proposing to plead guilty
is death or imprisonment for life, and then it explains
some of the decisions that have been rendered by the
United States Supreme Court that pertain to offenses
committed by persons under the age of 18 when the
crime was committed. That is what is alleged in your
instance, that it is alleged you were under the age of
18 at the time of the crime.
And so it states while there are constitutional
questions here, it's -- it states in this plea agreement
that the -- the Court, in applying the law, would have
exercise would exercise its would have discretion to
exercise in order to sentence you up to a term of years
up to and including life in prison. But this last
sentence states that pursuant to Rule 11(c)(1)(C) of
the Federal Rules of Procedure, that you and the
government are agreeing that a sentence of no more
than 30 years should be applied and is the appropriate
sentence for you in this case. Do you understand?
THE DEFENDANT: (In English) Yes, Your Honor.
THE COURT: Now, the fact that you and your lawyer
and the government lawyer agree to that does not bind
the Court at this point, and this morning I don't expect
to approve that. I expect to wait until I get a
presentence investigation report and then evaluate all
of the facts and then make a determination at the time
of sentencing as to whether this would be approved or
not.
[Page 13]

52a

And if that agreement that you should be
sentenced to no more than 30 years in prison should
not be approved by me at that time, then you will have
the right to withdraw your plea of guilty and resume
your appeal in the Fifth Circuit Court of Appeals and
the rest of it.
****

53a

APPENDIX P
Case 4:14-cr-00245 Document 190 *SEALED* Filed
on 07/01/16
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
UNITED STATES OF AMERICA
v.
J.B.R., A MALE JUVENILE,
NO. 4:14-CR-245-3
UNOPPOSED MOTION TO WITHDRAW PLEA
J.B.R., through his attorney, M. Andres Sanchez
Ross, files this motion respectfully requesting that
the Court allow him to withdraw his plea, withdraw
his conditional waiver of juvenile status, withdraw
his conditional waiver of indictment, and proceed
with his interlocutory appeal in the Fifth Circuit
Court of Appeals, No. 15-20262.
Following this Court's transfer order, J.B.R. filed
an interlocutory appeal. Prior to briefs being due,
previous counsel, with consent of J.B.R., negotiated a
Rule l l(c)(l)(C) plea agreement. At that point, the
Fifth Circuit remanded proceedings to this Court for
the limited purposes of plea proceedings. J.B.R.
then conditionally waived his status as a

54a

juvenile, waived his right to an indictment, and
pleaded guilty pursuant to the plea agreement.
After due consideration, this Court has rejected
the plea agreement. At this point, after considering
the advice of his counsel, J.B.R. chooses to withdraw
his plea of guilty, withdraw his conditional waiver of
his juvenile status, and proceed with his appeal in
the Fifth Circuit.
For these reasons, J.B.R. respectfully requests
that the Court allow him to withdraw his plea,
withdraw his conditional waiver of juvenile status,
withdraw his conditional waiver of indictment, and
proceed with his interlocutory appeal in the Fifth
Circuit Court of Appeals, No. 15-20262.

55a

APPENDIX Q
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
UNITED STATES OF AMERICA
vs.
JOSE LEONEL BONILLA-ROMERO
CASE NO. 4:14-CR-00245-003
Houston, TX
Friday, Jun 8, 2018 10:14 AM – 10:25 AM
***
MOTION HEARING
BEFORE THE HONORABLE
CHRISTINA A. BRYAN
UNITED STATES MAGISTRATE JUDGE
April 19, 2019
***
[Page 4]
THE COURT: Okay. And, Mr. Donnelly, could you tell
us the penalty to be charged?
MR. DONNELLY: Yes, Your Honor. Statutorily, the
punishment is death or automatic life imprisonment,
a fine of up to $250,000, and up to five years of
supervised release and a $100 special assessment.
However, because the Supreme Court case law,
specifically under Roper and Miller -- because those
[Page 5]

56a

two options are unavailable to an individual who
committed the offense prior to his 18th birthday,
under rules of statutory construction, the punishment
ranges up to life imprisonment.
THE COURT: Do you understand that the
punishment
(indiscernible
[alleged
by
the
Government]) is up to life imprisonment, Mr. BonillaRomero?
MR. SANCHEZ: And Your Honor, before he answers
that -- I was waiting for the translation to finish,
sorry. But before he answers that, the issue about
whether a court can give up to life, I think is an issue
that we don’t feel is settled yet, and it’s an issue that
we have appealed and will appeal potentially further
in the future.
THE COURT: You’re reserving your right to appeal
the sentence that Mr. Donnelly has just stated is the
potential sentence?
MR. SANCHEZ: I guess what I’m saying is –
THE COURT: Whether it applies in this situation?
MR. SANCHEZ: Whether it applies at this moment.
Right.
THE COURT: Okay. Understood. And I’m not asking
you to agree to it. I just want to make sure that the
Defendant understands that that is -- according to the
government, that is the potential penalty with which
he’s faced if he were convicted.
MR. SANCHEZ: And I think you stated it perfectly,
that is according to the government, not according to
any courts so far.
THE COURT: Okay. Have you been following this
private conversation, Mr. Bonilla-Romero? Your
counsel has objections as to whether or not that is the

57a

appropriate penalty, or whether that penalty applies.
But that is definitely what the government alleges is
the penalty, and I assume we’ll [sic] be seeking in the
case if you are convicted. Do you understand that?
MR. BONILLA-ROMERO: Yes, ma’am.
***

58a
APPENDIX R
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HONORABLE EWING WERLEIN, JR., JUDGE
PRESIDING
UNITED STATES OF AMERICA
vs.
J.B.R., A MALE JUVENILE,
4:14-CR-245-3
RE-ARRAIGNMENT HEARING
***
April 19, 2019
***
[Page 2]
THE COURT: Thank you. Good morning. It's my
understanding that the defendant wishes to enter a
plea of guilty pursuant to Count 1. This is a one-count
Indictment?
***
THE COURT: Very well. With that, no plea
agreement?
MR. SANCHEZ: That's right. There is no plea
agreement. We do have an understanding that
[Page 3]
the defense is not accepting the sentencing scheme
articulated. But we're -- it's a legal argument that

59a

we've raised here in this Court, and the Fifth Circuit,
Supreme Court. So we were -THE COURT: Do you have any new authority on that?
MR. SANCHEZ: No, Your Honor.
THE COURT: And the indication implied from the
Court of Appeals' opinion would be that severance of
the punishment statute under 1111(b) would be
correct, is it not?
MR. SANCHEZ: That is not necessarily our reading of
the opinion. Our reading of it was that's something to
take up at a later time. So we'll take it up at a different
time.
THE COURT: They certainly did not rule it out, did
they?
MR. SANCHEZ: I don't read the opinion as ruling it
out. That's correct, but...
THE COURT: All right. Government ready to go
forward?
****
[Page 11]
[THE COURT:] Do you understand what it is you're
charged with?
THE DEFENDANT: Yes, Your Honor.
THE COURT: Now, under Section 1111 of Title 18,
which is the federal murder statute, the offense of
murder in the first degree, which is charged here,
carries a maximum sentence of death and a minimum
sentence of life in prison. Because you had not quite
attained the age of 18 when the crime was committed
and are being tried as an adult, under the United
States Constitution, you're not eligible for the death
penalty or for a mandatory sentence of life

60a

imprisonment. Therefore, in reading the punishments
prescribed for murder, in the murder statute, Section
1111(b), the Court must sever and omit those words in
the punishment language. That would be
unconstitutional, if applied to you, because of your age
at the time of the crime. When the Court does that,
the offense -- the offense of murder in the first degree
committed at the time
[Page 12]
committed by one who, at the time of the murder, had
not attained 18 years of age and is tried as an adult,
carries with it the following punishment: The
sentence of imprisonment for any term of years or for
life; a fine not to exceed $250,000; a term of not more
than five years of supervised release; and a special
assessment of $100. Has all of that been explained to
you?
THE DEFENDANT: Yes, Your Honor.
MR. SANCHEZ: I think it is important at this stage
to, again, make clear that I've explained that that is
this Court's position, and it's something that we
intend to continue to challenge. And he understands
that that is something that we will challenge at the
next stage. We're not accepting that as the legal
punishment range in this case.
THE COURT: Do you have any alternative advice that
I should give the defendant under Rule 11?
MR. SANCHEZ: Not at this time, Your Honor.
THE COURT: Now, when I talk about
[Page 13]
supervised release, I'm talking about the condition of
supervision that exists when one commits – that
condition of supervision that exists when one leaves

61a

prison. There are certain conditions imposed that one
not commit another federal, state, or local crime. And
if any of those conditions is broken, then the Judge,
upon hearing, may set aside your release and order
you back to prison for up to five more years in prison,
just for breaking the term of supervised release. Do
you understand?
THE DEFENDANT: Yes, Your Honor.
THE COURT: You understand, then, what the
possible consequences of your plea of guilty may be in
terms of what the maximum possible sentence can be?
THE DEFENDANT: Yes, Your Honor.
***
THE COURT: You also understand that, under some
circumstances, either you or the government would
have the right to appeal to a higher court any sentence
that I impose?
THE DEFENDANT: Yes, Your Honor.
***

62a

APPENDIX S
PRESENTENCE INVESTIGATION REPORT
exceprt
Case 4:14-cr-00245 Document 242 *SEALED* Filed
on 07/03/19 in TXSD Page 14 of 25
…..
Pending Charges
Date of
Arrest
10/03/2013

Charge

Agency

Murder,
Walker
County,
Texas,
District
Attorney’s
Office, Docket
No. 26512

Walker
County,
Texas,
Texas
Depart
ment of
Public
Safety

Dispositi
on
Pending

This offense is related to the instant federal offense
and is described above in The Offense Conduct
section of this report. An additional charge for
aggravated assault with a deadly weapon was
rejected.

63a

APPENDIX T
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
UNITED STATES OF AMERICA
vs.
J.B.R., A MALE JUVENILE,
4:14-CR-245
Houston, TX
10:08 a.m.
September 6, 2019
SENTENCING
BEFORE THE
HONORABLE EWING WERLEIN, JR.,
UNITED STATES DISTRICT JUDGE
***
April 19, 2019
***
[Page 16]
THE COURT: All right. Now we come to the
defendant's objections. Anything -- I gather your
submission is complete on this already, Mr. SanchezRoss?
MR. SANCHEZ: Yes, Your Honor.
THE COURT: All right. The question here, and the
objection raised by the defendant at this point, and the
one objection that the defendant has, is that

64a

Paragraph 96, I think -- I said 93, I think, but I think
in the revised PSR it would be Paragraph 96, objecting
to the statement, "Imprisonment, is any terms of
years, up to and including life, under USC Section
1111(b). And the defendant relies on United States
versus Evans, 333 United States 483, 1948, arguing
that there is no sentence available for the crime of
murder committed by one -- under 1111(b), which
requires a sentence of either life or death, given the
holding of the Supreme Court in Miller versus
Alabama in 2012. Is that a fair statement?
MR. SANCHEZ: Yes, Your Honor.
THE COURT: Now, in considering this, there’s been
an issue that’s come up before. In the memorandum
and order that -- or amended supplement to the order
of transfer to adult criminal proceedings that I signed
June 30, 2016, was entered that day, I posited one way
in which the -- in the light of Miller when a minor is
[Page 17]
transferred to trial as an adult on charge of murder
under 1111, Section 1111, that the punishment states
the punishment of severability to be followed in
accordance with Booker. And I gave an example of
how that might be done.
There’s another way to look at it as well, and this
is suggested by United States District Judge Valerie
Caproni from the Southern District of New York, in
United States versus Conyers, 227 F.3d -- Fed
Supp.3d 280. And in this case she was dealing with a
similar section, 18, United States Code, 1859, which
proscribes violent crimes in aid of racketeering
activity.
The defendant there who was 17, like this
defendant, about three months short of turning 18, as

65a

I recall, committed murder, like this be defendant did.
Three-fourths of his way through his 18th year, but
still three months shy of completing it. And he was -he was transferred for adult, or rather, for prosecution
as an adult. And, so, Judge Caproni dealt with the
question of the statute there which provides in Section
1959(a)(1), that whoever commits murder under a,
attempts to, for murder by death or life imprisonment,
shall be punished, one for murder by death or life in
prison. Virtually the same as Section 1111(b).
[Page 18]
In the absence of more specific and constitutional
guidance from Congress, the Court treats the
authorization of a maximum penalty as providing
discretion to the sentencing judge to sentence
anywhere between no penalty, and the maximum
penalty. And the analysis begins with examining, of
course, in our case, and in hers as well, in Miller,
because after Miller, one who is tried as an adult can
still get life because the Supreme Court narrowed
considerably the opportunity for that, it is still
permissible but only after considering the mitigating
factors of youth. And, so, the question arises, then,
when it is applied, the statute is applied to one who is
a minor, that is three months short of completing his
18th year, can the -- and where the government has
not sought life imprisonment or undertaken to show
that this would be the right answer for this particular
defendant. The question is can the constitutional,
unconstitutional part of the statute, 1111(b), be
severed from the statute without invalidating the
statute as a whole. The question is whether there is
any valid portion of Section 1111(a) is applied to
juveniles that would function independently, and in a
manner consistent with the intent of Congress. Judge

66a

Caproni, I think, wisely as I made reference to in my
previous order of June 30th and positing a different
possibility, she makes reference to the United States
versus Booker once again, articulating the three-part
standard to be used to determine whether
unconstitutional provisions may be severed from a
statute
[Page 19]
without invaliding the statute as a whole. The
touchstone of Booker, as the Supreme Court later
held, is legislative intent. And to determine what
parts of a statute can be raised, the Court must
consider what portions of the statute are:
One,
constitutionally valid; two, capable of functioning
independently; and, three, consistent with Congress's
basic objectives in enacting the statute. Most often,
Judge Caproni observes, that requires the Court to
consider whether the Legislature -- and here she's
quoting from the Supreme Court decision in "Ayoti" to
consider whether the
Legislature would have
preferred what is left of the statute, or no statute at
all. The Court should be careful not to invalidate
principle is of Booker, not to invalidate more of a
statute than is necessary, because holding legislation
unconstitutional frustrates the intent of the elected
representatives of the people. She cites also a District
of Columbia Circuit in which states in connection with
another case, that the analysis is whether Congress
would have preferred the law with the offending
provision severed over no lat at all. The law -- and,
two, the law with the offending provision severed
would remain fully operative as the law. So the first
step is to consider what
[Page 20]

67a

portions or applications of Section 1111(b) are
constitutional, mindful of the Supreme Court's
directive that the Court should invalidate as little of
the statute as possible.
The Court in Miller makes clear that the Court should
invalidate Section 1111(b) to the extent that it
provides for a mandatory life sentence for the
defendant in this case. But Miller also stands for the
proposition that the Court has sentencing discretion
to account for the juvenile's lessened culpability and
potential rehabilitation, and does not rule out a life
sentence in all circumstances. It requires that the
Court take into account these mitigating
circumstances or mitigating qualities of youth. Yet it
recognizes that if there are some cases where the
crime reflects irreparable corruption, a life sentence
may
be
appropriate
and
constitutional.
This reading of the Supreme Court's decision in Miller
is -- the Supreme Court's Miller decision, I think that
Judge Caproni made, with respect to violent crimes in
aid of racketeering activities is exactly the same that
we're dealing with here in Section 1111(b).
[Page 21]
The fact that here Miller does not require the Court
by its own expressions of the opinion itself to
invalidate 1111(a) and all applications to juveniles.
They may be sentenced to that maximum penalty of
life under certain circumstances, as long as the Court
finds that the defendant is irredeemable, or so
culpable as to warrant a life sentence. Now, here, like
in the violent crime in aid of racketeering statute, the
Congress set the same mandatory minimum and
maximum sentence, but the fact they did so does not
mean that the Court has to invalidate both. Thus, a
juvenile who commits a sufficiently heinous act, has a

68a

sufficiently severe history of criminal conduct may be
constitutionally sentenced, as they say under Section
1111(a), as enacted by Congress, so long as the Court
is not bound by Section 1111(b)'s mandatory
minimum. So we have a situation where the
maximum sentence for a crime committed here is life,
but there is no valid, constitutionally valid minimum
term set. So the question arises, then: How, what
kind
of precedence do we have for the Court
invalidates the part of the statute? And Judge Caproni
is very helpful in her research on this, pointing out a
couple of cases where the Supreme Court uses a
surgical approach, as she calls it, to narrow, to tailor
narrowly the as applied challenges -- which we have
here -- to the statute in severability cases.
[Page 22]
So she cites United States versus Gray, where the
Supreme Court struck down a federal statute that
band assembly on the Supreme Court's grounds only
as it applied to the sidewalks outside the court's
building, even though the statute did not back any
distinction between the ground's proper and the
sidewalks. And, again, in the Garner case, the
Supreme Court invalidated a Tennessee statute that
authorized all of the necessary maintenance to effect
an arrest, but only to the extent that it authorized
deadly force, and only to the extent that deadly force
was authorized against nonviolent offenders. Well,
the Court finds this analysis that Caproni made very
persuasive, and finds and concludes that Section
1111(b) as applied to this defendant, in looking at that
statute, it is only the mandatory minimum portion of
Section 1111(b) that must be invalidated. Now, that
being the case, we have a statute with the maximum
sentence. We do not have any mandatory minimum

69a

statute. This is what is referred to as the gap that is
left open. A gap in the statute whereby the maximum
penalty is authorized, there's no provision for a less
than life sentence. At this point, in analyzing the
violent crimes in aid of racketeering activity, Judge
Caproni
[Page 23]
again pointed out, which I think is well taken, that
Booker requires the Court to assume that any
sentencing regime enacted by Congress would provide
for some degree of judicial discretion if required by the
Constitution. So, here, the task is to consider where
the statute as constitutionally construed, will serve
Congress's basic purpose and is consistent with, not
necessarily perfectly reflective of Congress's intent,
had it legislated this statute 1111(b) with the holding
of Miller in mind. Judge Caproni points out that
tradition and historical practice suggests that the
absence of a more specific guidance authorization, a
maximum penalty permits the Court to sentence a
defendant to any term of years up to that maximum
penalty. It's a sensible rule of construction. It's one
that has applied in many instances in the converse of
this situation where there is a minimum set by
Congress, but no maximum. Thus, for example, in the
bank robbery sentence where there's a statutory
minimum of ten years, the courts have held that in
the absence of a specified maximum, it means simply
that the maximum is life in prison. And one case so
holding United States versus Turner, 389 F. 3d 111,
where the Court writes that -- this is Fourth Circuit - "That by declining to limit the
[Page 24]

70a

penalty, Congress gives maximum discretion to the
sentencing court.
And when Congress places
sentencing at the discretion of the court, courts have
interpreted such a statute as intending to authorize a
maximum of life in prison." The Fifth Circuit has held
the same thing in Section 924(c)(a)(1)(2) in application
of that statute, where for the use of carrying and
using a firearm in commission of a violent crime,
there's a sentence of -- prescribed, required, minimum
of seven years. And the fact that they have that term
of not less than seven years has led the Court to find
that the statute is applicable, that the statute implies
that the only term of imprisonment mandated was the
minimum, or floor, not the floor and ceiling as the
prior version of the statute provided by application
Congress left open a ceiling sentences. And the Court
holds that in this kind of a case, they construe the
statute to authorize up to life imprisonment. That's
United States versus Sias, 227 F.3d 244. The same
thing
has
been
held
in
some
cases
dealing with where there's minimum -- mandatory
minimum with respect to sentencing guidelines
imposed by statute also, kinds of certain type of case.
And the courts have
[Page 25]
construed that means up to life on supervised release.
Well, here is, as Judge Caproni found in with respect
to violent crimes act, here's the natural corollary of
that. Now, with respect to Section 1111(b), the
language he uses in looking at it is equally applicable
here. The statute 1111(b) has a maximum but no
minimum, and the same default rule of construction
applies.
In the absence of more specific and constitutional
guidance from Congress, the Court treats the

71a

authorization of a maximum penalty as providing
discretion to the sentencing judge to sentence
anywhere between no penalty, and the maximum
penalty. Now, the defendant -- and she uses some
rhetoric here that isn't a bad way to approach it also,
saying it would be to seriously lose sight of the forest
for the trees, to argue that Congress would prefer to
invalidate -- in this instance Section 1111(b) entirely - as applied to juveniles who commit such murders,
than to allow the sentencing court discretion to
sentence such defendants to a term less than life.
Now, the defendant has cited the Evans case. The
Evans case really does not apply to the circumstance.
In the Evans case, Congress had proscribed the
Supreme Court decision, by the Supreme Court cited
at
[Page 26]
333 U.S Reports, but in any event, 1948 U.S. Supreme
Court decision, where there were two crimes
proscribed by the statute of the sentence. There was
a sentence prescribed for only one of those crimes.
And when the defendant was charged with the other
crime, the Court found there was no sentence that
Congress had authorized in that instance. And,
therefore, the Court could not write in a sentence, is
quite different than the situation that we have
applied here.
So I find that, just as Judge Caproni did in the
Conyers case, as applied here, Section 1111(b) is
invalid as to juveniles to the extent it provides for a
mandatory minimum sentence of life imprisonment.
The maximum penalty authorized by Congress life in
prison remains valid after Miller versus Alabama, and
it's evident from that opinion. In the absence of
specific guidance from Congress, the Court holds that

72a

authorization of a maximum penalty provides the
Court with discretion to sentence a defendant to any
term of years up to the maximum. And that's based
upon reason and tradition in the authorities that
support that principle. Accordingly, the defendant's
objection is denied.

